0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Heather Campbell, hereby certify that 40 bound
copies and 1 unbound copy of the foregoing
Respondents' Brief in Opposition to Petition for Writ of
Certiorari in 21-341, William J. Cost and William J.
Cost, Jr. v. Borough of Dickson City, Michael
Ranakoski and MichaelMcMorrow, were sent via Next
Day Service to the U.S. Supreme Court, 3 copies by
Three Day and e-mail service to the following parties
listed below, this 30th day of September, 2021:
Cynthia L. Pollick
The Employment Law Firm
PO Box 757
Clarks Summit, PA 18411
(570) 510-7630
pollick@lawyer .com

Counsel for Petitioners
Patrick J. Murphy, Esquire
Counsel of Record
Bardsley, Benedict + Cholden, LLP
201 Lackawanna Avenue, Suite 300C
Scranton, PA 18503
(570) 344-9444
pm urphy@b bclawfirm.com

Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 30, 2021.

Heather Campbell
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public

'

[seal]

JOHN D. GALLAGHER
Notary Pu!:*c, State of Ohio
My Commission E,cplres
rebru?ry 14, 2023

